No.

IN THE
SUPREME COURT OF THE UNITED STATES

F. Allan Midyett

— PETITIONER

(Your Name)
VS.

Robert Wilke, Secretary, Department of Veterans Affairs
— RESPONDENT(S)
PROOF OF SERVICE

F. Allan Midyett
, do swear or declare that on this date,
I,
________ 3 Januaryr 20 21 f as required by Supreme Court Rule 29 I have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Robert Wilke, Secretary, Department of Veterans Affairs, Office of the Secretary, 810
Vermont Avenue, NW, Washington, DC 20420 202-461-4800
Seth T. Creed, Assistant United States Attorney Bar No. 2010176, 414 Parker Avenue
Fort Smith, Arkansas 72901 Email: seth.creed@usdoj.gov
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

3 January. 2021

